  -q'AMTRAK
      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                        Office of Inspector General


Memorandum
To:           Gordon L. H.u tchip son, Acting Chief Financial Officer

From:
           N.t<     D/.4;::/~
              David R. Warren
              Assistant Inspector General, Audits

Date:         October 12, 2012

Subject:      Food and Beverage Service Best Practices


In August 2012 the Inspector General testified before the Committee on Transportation
and Infrastructure, House of Representatives, about plans for future work in the food
and beverage area. This letter is to advise you that the OIG is initiating an audit to
identify and review best practices used by public- and private-sector entities that
provide food and beverage services to passengers, such as foreign passenger railroads
and airlines.

Our objective is to make a comparative analysis between Amtrak's business process for
providing food and beverage service and best practices used by others to deliver the
same or similar service. Using that analysis, we will determine the feasibility of Amtrak
using different business practices from a cost, revenue, and operational and service
perspective. We request that your office arrange an entrance conference for us with the
appropriate Amtrak officials at the earliest possible date. We will keep you advised of
the status of our work and any material changes in our audit objectives.
                                                                                          2


J.J. Marzullo will be the auditor-in-charge for this assignment and will be assisted by
George Atuobi and Kira Rao. If you have any question s regarding this audit, please
contact me at (202) 906-4742 (david .warren@amtrakoig.gov) or Michael Kennedy, at
202-906-4308 (michaeLkennedy@an1trakoig.gov).



cc:    DJ Stadtler, Vice President, Operations
       William Herrmann, Managing Deputy General Counsel
       Jessica Scritchfield, Senior Director, Internal Controls/Audit
